EXECUTIVE SUMMARY
                   We audited the Bureau of Indian Affairs (BIA) education
Introduction       employee background investigation process. Our objective
                   was to determine whether BIA’s process prevents the
                   hiring and retaining of individuals with unsuitable
                   backgrounds for positions having regular contact with or
                   control over Indian children.

                   Prior to our audit, BIA had moved the background
                   investigation process into a newly created Office of Indian
                   Education Security Services (Security Office) within the
                   BIA’s Office of Indian Education Programs (OIEP). To
                   improve the background investigation process, the new
                   Security Office has:

                      ¾ Provided training to local school officials regarding
                        preparing preliminary security packages.

                      ¾ Dramatically reduced the backlog of personnel
                        security files awaiting final determination.

                      ¾ Worked with the Office of Personnel Management
                        (OPM) to obtain the results of Federal Bureau of
                        Investigations (FBI) fingerprint and name checks
                        (FBI checks) in much less time than it previously
                        took.

                      ¾ Begun a process to identify employees without
                        required background investigations.

                   We found, however, that the pre-screening process still
Results in Brief   allows potentially unsuitable persons to be hired. Further,
                   the process does not ensure that the employment of
                   unsuitable individuals is terminated in a timely manner.
                   We concluded that BIA’s background investigation process
                   is not sufficient to prevent Indian children from potentially
                   being in danger. For example:

                          ¾ One year and five months after a home living
                            assistant at a school dormitory in New Mexico
                            was hired a local law enforcement inquiry was
                            completed. It identified 26 offenses for this
                            individual including battery and endangering
                            the welfare of a minor. This individual was


                                 i
                             subsequently removed from this position. The
                             new process still relies on local school officials
                             to initiate the local law enforcement inquiries.

                         ¾ Seven months after an education aide in New
                           Mexico was hired, the FBI check for this aide
                           was completed. The FBI check revealed a
                           battery and child endangerment conviction.
                           The education aide’s employment at the school
                           was subsequently terminated. The new process
                           still allows applicants to be hired before
                           completion of the FBI check.

                         ¾ A school secretary in New Mexico convicted of
                           voluntary manslaughter and aggravated assault
                           had a final unsuitable determination in
                           November 2001 but remained employed for
                           about nine months until a final resolution in
                           August 2002.

                  We are recommending that BIA take steps to strengthen its
Recommendations   pre-screening process and improve accountability over the
                  complete process. In all, we made five recommendations.

                  Based on our audit, the Office of Indian Education Security
BIA Actions       Services is taking steps to improve the background
                  screening process. These steps include:

                         ¾ Amending its procedures and submitting
                           fingerprint charts to the Office of Personnel
                           Management as soon as the security package is
                           received, rather than waiting until the security
                           package has been reviewed and is properly
                           complete.

                         ¾ Entering into a Memorandum of Understanding
                           with the Office of Personnel Management to
                           conduct child-care investigations which include
                           checks of all relevant state criminal history
                           repositories.

                         ¾ Monitoring completion of pre-employment
                           screening.

                         ¾ Eliminating a large backlog of incomplete
                           background investigations.



                               ii
¾ Reconciling Federal Personnel Payroll System
  records of current employees to the background
  investigations log on a monthly basis.

¾ Developing and delivering needed training to
  various personnel.

¾ Meeting with the Deputy Director, OIEP, on a
  weekly basis to keep him informed of security
  issues.

¾ Receiving and reconciling monthly reports of
  new appointments and terminations for all
  OIEP schools and the OIEP Central Office.




     iii
This Page Intentionally Left Blank




                iv
TABLE OF CONTENTS
                                                                                                                           PAGE

INTRODUCTION ............................................................................................ 1

        BACKGROUND ....................................................................................................       1


RESULTS OF AUDIT ...................................................................................... 3

        THE CURRENT PROCESS DOES NOT PREVENT UNSUITABLE INDIVIDUALS
        FROM HAVING CONTACT WITH INDIAN CHILDREN AT BIA SCHOOLS ................                                             3

                  LOCAL LAW ENFORCEMENT CHECKS ....................................................                          3

                  FBI FINGERPRINT AND NAME CHECKS ..................................................                         5

                  ACCOUNTABILITY ..................................................................................          6

        BIA ACTIONS.....................................................................................................     9

RECOMMENDATIONS ................................................................................. 11

APPENDICES

        1. BACKGROUND .............................................................................................. 15

        2. SCOPE AND METHODOLOGY ........................................................................ 17

        3. PRIOR AUDIT COVERAGE ............................................................................. 18

        4. BIA RESPONSE TO DRAFT REPORT ............................................................. 19

        5. STATUS OF AUDIT RECOMMENDATIONS ...................................................... 23




                                                             v
This Page Intentionally Left Blank




                vi
INTRODUCTION
             This report presents the results of our audit of the
             Bureau of Indian Affairs’ (BIA) Office of Indian
             Education Programs’ (OIEP) employee background
             investigation process. Our objective was to determine
             whether BIA’s process prevents the hiring and retaining
             of individuals with unsuitable backgrounds for positions
             having regular contact with or control over Indian
             children.

             While a recent reorganization has yielded some
             improvements in BIA’s process, we ultimately
             concluded that BIA’s education employee background
             investigation process is still not ensuring that unsuitable
             individuals are prevented from having contact with
             Indian children.

             Individuals who have been convicted of certain
Background   offenses, such as sexual assault or molestation, are
             precluded by law from holding positions that have
             regular contact with or control over Indian children.
             Therefore, each individual who is employed or is being
             considered for employment in a position having duties
             or responsibilities including regular contact with or
             control over Indian children is required to undergo a
             background investigation. Exact numbers are
             unavailable, but it is clear that only a few applicants are
             ever shown to be unsuitable by the background
             investigation process. At the time of our audit, the BIA
             records showed that out of 7,664 background
             investigations initiated, only 165 identified issues for
             further investigation, and only 50 (or less than one
             percent of the total) were ultimately found to be
             unsuitable.

             BIA’s current procedures require the pre-screening of
             applicants by the school hiring officials and pre-
             approval of hiring by the OIEP Office of Indian
             Education Security Services (Security Office). Pre-
             screening includes verifying applicants’ information
             regarding previous employment, contacting references,
             and obtaining information from local law enforcement
             agencies. The hiring officials complete and forward to
             the Security Office the information they obtain through


                           1
the pre-screening process on an affidavit. The Security
Office reviews the pre-screening information and then
sends the school hiring officials back written
recommendations on whether to tentatively hire
applicants. Each new employee then completes a more
detailed security package. This security package
contains information about the new employee’s history
including his or her education and previous
employment, former residences, aliases, substance
abuse, and legal convictions, if any. The completed
security package is sent to the Security Office which
reviews the package and, if it is complete, forwards it to
the Office of Personnel Management (OPM). OPM
performs the actual background investigation, which
includes obtaining a Federal Bureau of Investigation
(FBI) fingerprint and name check (FBI check) of the
new employee.




              2
RESULTS OF AUDIT
                      Most applicants successfully pass a background
The Current           investigation; only a few individuals are found to be
Process Does Not      unsuitable. However, the BIA’s background
Prevent Unsuitable    investigation process allows those few unsuitable
Individuals From      individuals to be hired and possibly have contact with
Having Contact with   Indian children. We found that Indian children could be
Indian Children at    in danger because:
BIA Schools                  ¾ Applicants were hired without timely
                               initiation of local law enforcement checks.

                             ¾ Applicants were hired before the FBI checks
                               were completed.

                             ¾ There is insufficient accountability in the
                               process to ensure background investigations
                               are completed promptly or employees who
                               are determined to be unsuitable by
                               background checks are removed from their
                               positions promptly.

Local Law             Applicants were hired without timely initiation of local
Enforcement           law enforcement checks. Local law enforcement checks
                      generally involve contacting police departments for
Checks
                      records checks at locations where applicants previously
                      lived or worked. Depending on the applicant, this may
                      mean contacting multiple local police agencies
                      throughout the nation.

                      Although it has long been BIA policy that local law
                      enforcement reviews be completed during the pre-
                      screening process, these reviews are seldom completed
                      before an individual is hired. The current process
                      requires the local hiring official to conduct the local law
                      enforcement check. In actuality, the hiring officials
                      rarely even start this check. Frequently, OPM is the
                      initiator of the local law enforcement check during the
                      full background investigation. Thus the local law
                      enforcement check, which requires a long time to
                      complete, is not started until after the applicant is
                      tentatively hired. Also, OPM is only required to request
                      information, it is not required to get a response before
                      completing its investigation. To complete the local law


                                    3
enforcement check, BIA security personnel have
generally needed to make additional inquires after OPM
completes its investigation. We reviewed the files of 57
new employees. Only 4 files (seven percent) had
documentation showing that local hiring officials started
the local law enforcement checks. We were able to
obtain complete information regarding the hire dates
and the initiation of the local law enforcement checks
for 31 new hires. For those 31 new employees, the
average length of time between the hire date and
initiation of the local law enforcement check was 243
days, or about eight months.

Some of these applicants were found by the local law
enforcement reviews to be potentially unsuitable for
employment in positions having contact with or control
over Indian children. For example:

       ¾ A home living assistant at a school dormitory
         in New Mexico was hired in October 1998
         and did not receive the required local law
         enforcement check during the employee pre-
         screening. The FBI check revealed no
         offenses, but a local law enforcement inquiry
         in March 2000 identified 26 offenses
         including battery and endangering the
         welfare of a minor. This unsuitable
         individual remained a school employee for
         approximately 17 months before the local
         law enforcement inquiry was made. Also,
         after the local law enforcement review
         identified the offenses, this individual
         remained employed for approximately six
         months before a final determination to
         remove the employee was made.

The current local law enforcement check process is time
consuming and convoluted. It may result in three
separate inquiries to a local law enforcement agency
(one from the hiring official, one from OPM, and one
from the Security Office.) The Security Office has the
ultimate responsibility to complete the local law
enforcement check. To do that, the Security Office first
must determine what steps the hiring official and OPM
may have completed and then complete the remaining
steps. In our opinion, shifting the responsibility to



             4
                      initiate the local law enforcement check from the local
                      hiring officials to the Security Office will help
                      streamline and hasten the process. The Security Office
                      should initiate the local law enforcement check and
                      make follow-up inquiries while OPM is conducting its
                      background investigation. The local law enforcement
                      agencies would then be able to have a single point of
                      contact for all Indian education background inquiries
                      and the Security Office would be able to ensure that the
                      checks are initiated and completed in a timely manner,
                      without repeating steps that may have been started by
                      others.

FBI Fingerprint and   Applicants were hired before completion of the FBI
Name Checks           fingerprint and name checks. Some of these applicants
                      were subsequently found by the FBI check to have a
                      criminal record that caused the individual to be
                      potentially unsuitable for employment in a position that
                      may have contact with Indian children. For example:

                             ¾ An education aide in New Mexico was hired
                               in August 1999 and had a background
                               investigation completed around March 2000.
                               The FBI check revealed a battery and child
                               endangerment conviction. A final
                               determination was issued in September and
                               employment was terminated in October
                               2000.

                      The Security Office has worked with OPM to have the
                      FBI check completed earlier in the process. The new
                      procedures include having OPM report the results of the
                      FBI fingerprint check within about 15 days after the
                      fingerprints and the security package are submitted.
                      However, this could be months after the employee is
                      hired. The Security Office currently cannot submit the
                      security packages to OPM until all the forms are
                      complete. From the 57 new hire files we reviewed, we
                      were able to identify 49 files that had both the
                      employees’ hire date and the date the security package
                      was properly completed. We identified 23 individuals
                      (47 percent) who were hired prior to the security
                      package being completed. The average elapsed time
                      between the date these individuals were hired and the
                      date the security package was completed was 107 days
                      or about three and a half months.



                                   5
                  We understand that there needs to be a balance between
                  the timing for hiring critical employees, such as
                  teachers, and completing the prescreening of applicants.
                  However, we believe that changing the process to allow
                  completion of the FBI check after an offer of
                  employment has been made, but before the employee is
                  hired, is a necessary safeguard that causes only a minor
                  delay in getting the new employee on board. We
                  contacted OPM and asked if the FBI check could be
                  completed prior to submission of the full security
                  package for the complete background investigation
                  process. OPM indicated that it could accept the
                  fingerprint form separately from the rest of the
                  investigation process and provide the results of the FBI
                  check to the Security Office.

Accountability    The current process does not provide sufficient
                  accountability to ensure that background investigations
                  are completed in a timely manner or that unsuitable
                  employees are removed from their positions promptly.
                  We found that local school officials were not always:

                         ¾ Completing required pre-screening steps.

                         ¾ Waiting for the Security Office’s pre-
                           approval before hiring applicants.

                         ¾ Ensuring that applicants prepare a complete
                           security package for submission to OPM for
                           the background investigation.

                         ¾ Promptly removing employees determined to
                           be unsuitable.

                  Also, the Security Office needs to improve its tracking
                  of the background investigation workload.

Performing Pre-   Hiring officials were not completing the required pre-
screening Steps   screening affidavits properly. We reviewed 57 pre-
                  screening affidavits for new employees and found only
                  one completed properly, including verification of all
                  required background information. The pre-screening
                  process includes verifying prior employment and
                  checking references. The Security Office then evaluates
                  the pre-screening information before pre-approving the



                               6
                     applicant to be tentatively hired. However, the Security
                     Office does not currently collect, analyze, or report
                     information on the completion of the pre-screening
                     affidavits by the hiring officials.

Obtaining Security   Schools hired applicants without the required pre-
Office Approval      approval by the Security Office. For example:

                            ¾ A counselor technician in Oklahoma was
                              hired three months before the school was
                              sent the notice of tentative hire by the
                              Security Office.

                            ¾ A teacher in Arizona was hired two and a
                              half months prior to the school receiving the
                              notice of tentative hire from the Security
                              Office.

                     The Security Office reviews the pre-screening package
                     to identify any obvious problems before providing a
                     recommendation on the tentative hiring of the applicant.
                     If the schools do not wait for the Security Office’s
                     preliminary review, the schools are increasing the risk
                     that an unsuitable person will be hired.

                     Additionally, the Security Office uses the pre-screening
                     and pre-approval process to identify new hires that will
                     need a background investigation. If schools are hiring
                     without the pre-approval, it may mean that the Security
                     Office is unaware of the need to conduct a background
                     investigation for that new employee. This increases the
                     chance that an employee will never have a background
                     investigation and that unsuitable individuals will not be
                     identified or prevented from having contact with Indian
                     children.

                     To identify OIEP employees who may not have had
                     background investigations, we compared the
                     background investigation log for OIEP employees to the
                     information in the Federal Personnel/Payroll System
                     (FPPS) for OIEP. We identified 146 OIEP employees
                     that were not listed on the log and may never have had a
                     background investigation completed. We provided this
                     information to the Security Office immediately. As a
                     result, the Security Office took action to reconcile the
                     background investigation log. Since February 2003 the



                                  7
                      Security Office has performed this reconciliation
                      monthly.


Completing Security   Hiring officials were not ensuring that new employees
Packages              properly completed the security forms needed to initiate
                      a background investigation. When the Security Office
                      receives incomplete forms it must return the forms to be
                      completed. This lengthens the time it takes to complete
                      background investigations. The Security Office has
                      developed and delivered training about the security
                      package to local school officials to help them ensure
                      that the packages are complete prior to submission. The
                      Security Office maintains information about when a
                      security package is received, when it is completed, and
                      when it is forwarded to OPM to start an investigation.
                      However, the Security Office does not analyze or report
                      information on the length of time it takes to get a
                      completed package or the number of times it needs to
                      return a package to the employee before it is completed
                      properly.

Removing Unsuitable   School officials were not always promptly removing
Employees             employees who have been determined to be unsuitable.
                      For 26 security files reviewed, we found that removal of
                      an unsuitable employee from his or her position could
                      be as quick as six days or as long as one year from the
                      date the unsuitability was determined. For instance:

                             ¾ A school secretary in New Mexico convicted
                               of voluntary manslaughter and aggravated
                               assault had a final unsuitable determination
                               in November 2001 but remained employed
                               for about nine months until a final resolution
                               in August 2002.

                      The Security Office does not currently collect, analyze,
                      or report information on the length of time unsuitable
                      employees are retained after the final suitability
                      determination.

Tracking Security     The Security Office maintains a database or log of the
Office Workload       background investigation workload. The log includes
                      information on an applicant’s name, dates actions are
                      taken or documents are submitted, and the outcome of
                      the investigation when completed. The Security Office



                                   8
              does not track the number of investigations needed, in
              process, or completed. Nor does it track its timeliness in
              completing its portion of the process. When the current
              Security Office took over the process in August 2002
              there was a large backlog of incomplete investigations.
              Some of these incomplete investigations had been
              unresolved for a long period. This backlog has been
              generally resolved; however, the Security Office should
              track and report workload statistics to help prevent a
              reoccurrence and to help measure its own performance.

              The Security Office needs to develop procedures to
              collect statistics on hiring officials’ performance in
              completing the pre-screening steps and obtaining pre-
              approval from the Security Office before hiring
              individuals. It should also collect statistics on the
              completeness and timeliness of security packages being
              sent to OPM for the background investigations. In
              addition, data should be collected on the numbers of
              persons who have been determined unsuitable but not
              removed from their positions. This information should
              be reported to OIEP management to help monitor and
              improve program performance.

              Based on our audit, the Office of Indian Education
BIA Actions   Security Services (Security Office) is taking steps to
              improve the background screening process. These steps
              include:

                     ¾ Amending its procedures and submitting
                       fingerprint charts to the Office of Personnel
                       Management as soon as the security package
                       is received, rather than waiting until the
                       security package has been reviewed and is
                       properly complete.

                     ¾ Entering into a Memorandum of
                       Understanding with the Office of Personnel
                       Management to conduct child-care
                       investigations which include checks of all
                       relevant state criminal history repositories.

                     ¾ Monitoring completion of pre-employment
                       screening.

                     ¾ Eliminating a large backlog of incomplete



                           9
   background investigations.

¾ Reconciling Federal Personnel Payroll
  System records of current employees to the
  background investigations log on a monthly
  basis.

¾ Developing and delivering needed training to
  various personnel.

¾ Meeting with the Deputy Director, OIEP, on
  a weekly basis to keep him informed of
  security issues.

¾ Receiving and reconciling monthly reports of
  new appointments and terminations for all
  OIEP schools and the OIEP Central Office.




     10
RECOMMENDATIONS
                 We recommend that the Assistant Secretary for Indian
                 Affairs:

                 1. Transfer responsibility for initiating local law
                    enforcement checks from the schools to the Office of
                    Indian Education Security Services (Security Office).

BIA Response     In its December 31, 2003, response to the draft report
                 (Appendix 4), BIA concurred with the audit finding, but
                 did not concur with the recommendation. Instead BIA
                 offered an alternative action to have the OIEP Security
                 Office work with individual schools to establish local
                 points of contact with local law enforcement agencies
                 and negotiate agreements with these agencies where
                 circumstances warrant. If schools are unable to obtain
                 these checks timely, then the matter would be referred to
                 the local law enforcement district office official for
                 resolution.

OIG Conclusion   OIG considers this recommendation unresolved. As the
                 BIA points out in its response:

                        … obtaining records from local law
                        enforcement agencies is a complex issue
                        that has just about as many procedural
                        scenarios as there are law enforcement
                        agencies. Some law enforcement
                        agencies require payment, some require
                        written agreements, some require
                        additional releases, and others will not
                        release (information) to non-law
                        enforcement agencies such as BIA
                        schools.

                 We agree this is often a complex and difficult
                 requirement to meet. In addition, the term local law
                 enforcement agency can be misleading because it does
                 not refer to being geographically local to a school’s
                 location. Rather it refers to the level of the law
                 enforcement agency’s jurisdiction, local as opposed to
                 state or national. Because of an applicant’s work
                 experience, a rural school in one state will often be
                 required to make local law enforcement inquiries in


                              11
                 multiple jurisdictions in other states. As pointed out in
                 the report, using local school officials from multiple
                 schools for these checks is a time-consuming and
                 convoluted process. Because of these complexities and
                 necessity to perform these checks in a timely manner,
                 we believe a single group of well trained individuals at
                 the OIEP Security Office would be much more effective
                 in performing these inquiries. We are requesting the
                 BIA reconsider the recommendation and provide the
                 information requested in Appendix 5.

                 2. Prohibit employment of new education personnel
                    until after the FBI check is completed.

BIA Response     BIA concurs with this recommendation. OIEP is
                 amending its standard operating procedures to require
                 that new hires have an OIEP security services approved
                 advanced fingerprint check from the FBI before
                 appointment to the position within OIEP. The new
                 standard operating procedures are to be implemented by
                 January 2004.

OIG Conclusion   OIG considers this recommendation resolved but not
                 implemented. The recommendation will be referred to
                 the Assistant Secretary for Policy, Management and
                 Budget for tracking of implementation.

                 3. Strengthen the accountability of the background
                    investigation process by establishing the following
                    requirements:

                       a. Provide the OIEP Deputy Directors a monthly
                          list of any persons determined unsuitable
                          whose employment has not yet been
                          terminated.

                       b. Provide the OIEP Education Line Officers a
                          quarterly report identifying deficiencies, such
                          as not completing reference checks or
                          submitting incomplete security packages, in
                          schools’ performance in the background
                          investigation process.

                       c. Provide the OIEP Director a quarterly report
                          indicating average time for investigations,
                          number of cases pending, average age of



                              12
                           pending cases, and number of cases decided
                           during the quarter.

                        d. Reconcile a listing of new employees from
                           the Federal Personnel Payroll System (FPPS)
                           records to the Security Office records at least
                           monthly.

BIA Response     BIA concurs with this recommendation. The BIA has
                 instituted weekly meetings with the OIEP Deputy
                 Director and quarterly presentations to the OIEP
                 Director, the OIEP Deputy Director, the Law
                 Enforcement Services Deputy Director, and the
                 Education Line Officers. These meetings and
                 presentations address the issues raised in this
                 recommendation. To establish a documented history,
                 OIEP has begun providing written reports to these
                 officials.

OIG Conclusion   OIG considers this recommendation resolved and
                 implemented. No further action is required.

                 4. Ensure that the appropriate officials act on the
                    information provided in the oversight reports as
                    necessary.

BIA Response     BIA concurs with this recommendation. The BIA has
                 already amended its standard operating procedures to
                 identify appropriate responsible officials and required
                 actions related to security actions. In addition, BIA has
                 developed language and will amend critical elements for
                 both performance standards and performance appraisals
                 to reflect responsibilities for security related positions.

OIG Conclusion   OIG considers this recommendation resolved but not
                 implemented. This recommendation will be referred to
                 the Assistant Secretary for Policy, Management and
                 Budget for tracking of implementation.

                 5. Ensure that the Security Office addresses the
                    differences identified by our audit between the log of
                    background investigations and the personnel records,
                    including completing any necessary background
                    investigations.

BIA Response     BIA concurs with this recommendation. BIA has



                              13
                 already and will continue to identify and resolve
                 differences between the log of background
                 investigations and the personnel records.

OIG Conclusion   OIG considers this recommendation resolved and
                 implemented. No further action is required.




                              14
                                                                                Appendix 1


                                 BACKGROUND
The BIA Office of Indian Education Programs (OIEP) is responsible for the support of
187 schools with an enrollment of about 48,000 students. These 187 schools include 119
day schools, 54 boarding schools, and 14 dormitories that house Indian children who
attend public schools. BIA’s schools are operated by either BIA or tribal organizations
under grants or contracts from BIA. During the 2001-2002 school year, BIA operated 68
schools and 1 dormitory and tribes or tribal organizations operated the rest.

In accordance with Executive Order 10450, Security Requirements for Government
Employment, dated April 27, 1953, each individual who has been tentatively selected for
employment with OIEP must undergo a minimum investigation to determine the
individual’s suitability for the position. In accordance with 441 Department of the
Interior Manual, Personnel Security and Suitability Requirements, OIEP contractors and
consultants are subject to the same requirements as Federal employees. Because OIEP
employees are in contact with Indian children, they are also subject to Public Law 101-
647 (codified in 42 U. S. Code 10341), Crime Control Act of 1990, Subchapter V-Child
Care Worker Employee Background Checks, which requires Federal agencies involved
with the provision of services to children under age 18 to assure that all existing and
newly hired employees undergo a criminal background check. In addition, OIEP is also
subject to Public Law 101-630, The Indian Child Protection and Family Violence
Protection Act (25 U.S.C. § 3207), which requires background investigations of
individuals who are employed or being considered for employment when the position has
regular contact with or control over Indian children. Individuals are not eligible for
appointment if they have been found guilty of, or entered a plea of no contest or guilty to,
any felony offense or any two or more misdemeanor offenses under Federal, State, or
Tribal law involving crimes of violence; sexual assault, molestation, exploitation, contact,
or prostitution; crimes against persons; or offenses committed against children.

In August 2002 responsibility for background investigations of education personnel at
BIA-operated schools was transferred from the BIA Personnel and Physical Security
Office to a newly created Office of Indian Education Security Services within the Human
Resources Office of the OIEP (Security Office). The Department of the Interior provided
the Security Office authority to perform background investigations in December 2002.
The Security Office hired six employees to run its program.

The Security Office is responsible for ensuring compliance with Federal law governing
access and suitability, and special statutory requirements for employees assigned duties
and responsibilities involving regular contact with or control over Indian children,
possession of a firearm, access to and management of information technology resources,
and access to individual Indian and tribal trust resources. This includes ensuring all BIA
positions, including those in OIEP, are appropriately designated and the appropriate
screening is conducted and/or background investigations performed for all BIA


                                            15
personnel, as well as contractor and Public Law 93-638 tribal employees, seeking access
to information technology and individual Indian and tribal trust resources.

The OIEP employs approximately 5,000 individuals. BIA has determined that all OIEP
positions require at least a Child Care National Agency Check with Inquiries. Since
January 1998, the BIA’s security offices have been involved in the various stages of
background investigations for approximately 6,700 individuals. The background
investigation process includes prescreening of applicants and obtaining completed
security forms from the applicants selected for positions. It also includes the
investigation and the adjudication (final determination of suitability) of current or
potential employees as well as volunteers and contractors whose work brings them into
contact with Indian children. The Office of Personnel Management, Investigative
Service, conducts all background investigations for OIEP employees, contractors,
consultants, and volunteers.




                                          16
                                                                               Appendix 2


                     SCOPE AND METHODOLOGY
Our audit was conducted at the BIA Personnel and Physical Security Office and the
Office of Indian Education Security Services (Security Office) in Albuquerque, New
Mexico, and included interviews with BIA management, security staff, and employee
relations staff. We also contacted individuals with the Office of Personnel Management
(OPM) to clarify background investigation requirements. We reviewed documentation
available from BIA and OPM for background investigations, and we reviewed selected
background investigation files. Our scope included background investigations conducted
from January 1998 to January 2003.

Our scope included background investigations for all Office of Indian Education
Programs (OIEP) positions, volunteers, and contractors at BIA-operated schools and all
individuals in the OIEP Human Resources Office. We did not review the background
investigation process for employees at contract and grant schools. In addition, the audit
did not include the background investigation process for positions outside OIEP, which
remained with the BIA Personnel and Physical Security Office.

We obtained the BIA Personnel and Physical Security Office’s background investigation
log as of November 2002. Using this log we selected 74 security files for our audit. Four
of the selected files could not be located leaving 70 files included in our audit. These
individuals were selected because they were determined to be unsuitable or were noted as
having a Public Law 101-630 issue. In addition, we obtained the same background
investigation log as of January 15, 2003, with updates made by the new Security Office.
Using this updated log we selected and reviewed 26 additional security files where the
background investigation was started by the BIA Personnel and Physical Security Office
and completed with a favorable determination by the new Security Office.

We conducted our audit in accordance with the Government Auditing Standards issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures as we considered necessary under the
circumstances.




                                            17
                                                                               Appendix 3


                       PRIOR AUDIT COVERAGE
During the past 5 years, the General Accounting Office has not issued any audit reports
regarding BIA’s education employee background investigations. The Office of Inspector
General (OIG) issued three reports in December 1998 related to issues of BIA education
employee background investigations:

       ¾ Background Investigations for Navajo Area Education Employees, Bureau of
         Indian Affairs

       ¾ Background Investigations for Phoenix Area Education Employees, Bureau
         of Indian Affairs

       ¾ Background Investigations for Albuquerque Area Education Employees,
         Bureau of Indian Affairs

These reports stated that the Area Security Offices did not timely initiate and properly
complete all background investigations for new and existing education employees. The
reports further stated that the BIA did not have effective processes, including written
procedures, to identity all employees needing background investigations and to obtain
the information necessary for the proper and timely completion of background
investigations and security clearances.

In all three reports, the OIG recommended that (1) the Central Office Security Officer
establish policies and procedures to ensure that education employees who have not
received completed background investigations are identified and that all background
investigation forms are obtained, properly completed, and submitted to the Office of
Personnel Management; (2) the Central Office Security Officer establish polices and
procedures to ensure that the Area Personnel Officers are notified of all relevant
personnel actions; and (3) the Personnel Officer of the Office of Indian Education
Programs (OIEP) establish a process to ensure that suitability determinations are
adequately reviewed and implemented.

The OIG made an additional recommendation in the Navajo Area report that the
Director, OIEP, review the three adverse suitability determinations cited in the report.

The BIA centralized the security process and established new policies and procedures as
a result of these audits. However, as this current report indicates, the changes made did
not resolve the issues identified in the prior reports.




                                            18
     Appendix 4




19
20
21
22
                                                          Appendix 5


    STATUS OF AUDIT RECOMMENDATIONS

Recommendations            Status             Action Required

      1           Management concurs   Reconsider the
                  with finding.        recommendation, and provide
                  Recommendation       estimated target date and titles
                  unresolved.          of officials responsible for
                                       implementation.

    2 and 4       Resolved; not        No further response to the
                  implemented.         Office of Inspector General is
                                       required. The
                                       recommendation will be
                                       referred to the Assistant
                                       Secretary for Policy,
                                       Management and Budget for
                                       tracking of implementation.

    3 and 5       Resolved and         No further action is required.
                  implemented.




                             23
This Page Intentionally Left Blank




               24
                            How to Report
                Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone — Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:
             Mail:         U.S. Department of the Interior
                           Office of Inspector General
                           Mail Stop 5341-MIB
                           1849 C Street, NW
                           Washington, DC 20240

             Phone:        24-Hour Toll Free                 800-424-5081
                           Washington Metro Area             202-208-5300
                           Hearing Impaired (TTY)            202-208-2420
                           Fax                               202-208-6081
                           Caribbean Field Office            340-774-8300
                           Hawaiian Field Office             808-525-5310

             Internet:     www.oig.doi.gov/hotline_form.html




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240
                                     www.doi.gov
                                    www.oig.doi.gov
